                                          NATIONAL SCIENCE FOUNDATION            IJ

                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

 Case Number: AI0080062                                                          Page Iof2


        A Universityl notified us it had conducted an Inquiry and concluded an
        Investigation was warranted into an allegation of plagiarism. Specifically, two
        professors (PI2 and P2 3) had collaborated on a proposal (the joint proposal)4 on
        which PI was the PI and P2 was the co-PI. Subsequent to NSF's awarding of their
        joint proposal, P2 submitted a proposal 5 (the subject proposal) to NSF that
        contained some of the same text and figures that appeared in the joint proposal.
                                                        ,                               .
        The University's Investigative Committee (IC) could not reach consensus about
        whether P2's use of the material was plagiarism; thus, the IC included a majority
        and minority opinion in its report. The only thing the IC agreed on as a whole were
        recommendations that the University should (1) strengthen its RCR program such
        that it has a uniform code of ethical beha~ior; (2) provide oversight of P2's proposals
        for 2 years; (3) a group of people with varying levels of seniority and of both genders
        should, form a mentoring circle for P2; (4) all junior faculty should have access to a
        mentoring circle; (5) P2 should receive a warning letter; and (6) the Dean should
        send a letter communicating a generalized directive of behavior to all research and
        tenure-track faculty in all departments within the college.

        The Investigative Committee (IC) concluded P2 should have cited the text and
        figures from the joint proposal, but split 5-4 in concluding the evidence did not
        support a finding of plagiarism. The IC majority noted evidence that P2 had
        developed the ideas for the subject proposal prior to joining PI's research team; had
        shared those ideas with PI's team; and those ideas, which were subsequently
        included in the joint proposal, were therefore legitimate for P2's incllusion in the
        subject proposal. The majority relied on testimony from v,arious faculty members
        acknowledging the common practice of sharing ideas and authorship jointly without
        disentangling ownership of the jointly created work. As such, within the standards
        of PI's and P2's department, their collaborative work was jointly owned and could
        be used by either without permission from the other. Therefore, it concluded the
        evidence did not support a finding of plagiarism.

        The IC minority disagreed with the majbrity'sconclusion that P2's earlier work was

             1 [redacted]
             2 [redacted]
             3 [redacted]
             4 [redacted]
             5 [redacted]




NSF OIG Form 2 (11/02)
                                     NATIONAL SCIENCE FOUNDATION 

                                     OFFICE OF INSPECTOR GENERAL 

                                       OFFICE OF INVESTIGATIONS 


                                CLOSEOUT MEMORANDUM

Case Number: AI0-62


    the basis of ideas explored in the joint and subject proposals. The minority did not
    agree that P2 could use any material from the joint proposal that was 110t 100% her
    own, particularly without citation. Therefore, the minority concluded the text and
    figures copied from the joint proposal into the subject proposal without citation was
    plagiarism, and it was deliberate (knowing/intentional).·

    The issue rests crucially on whether the proposal is a separable or joint one, i.e.,
    whether the authors indicated who wrote which text and figures and who was going
    to conduct which research, or the work appears jointly without such distinction.
    The Ie determined P2 had provided some text to the joint proposal, but was unable
    to agree on exactly which text and how much was provided. Based on our review,
    we conclude that it was not possible to determine who authored which sections of
    this joint proposal and therefore consider the text to be jointly owned. The NSF
    Research Misconduct Regulation does not consider un-cited duplication ofone's own
    words to be plagiarism, thus P2 was not required to cite the material she took from
    the joint proposal because that material is jointly owned. Therefore, OIG concurs
    with the University and concludes the evidence does not support a finding of
    plagiarism. Accordingly, this case is closed. j




                                                                    ,
                                                                    I
